r--

In the Supreme Court of the United States
ELSIE MARINO, CONSUMER,
Petitioner(s),
v.
JEFFREY NADEL, DOING BUSINESS AS
LAW OFFICES OF JEFFREY NADEL;
SCOTT E. NADEL; DANIEL MENCHEL;
MICHAEL MCKEOWN; CALIBER HOME LOANS, INC.;
BANK OF NEW YORK MELLON, AS TRUSTEE FOR
CIT MORTGAGE LOAN TRUST 2007-1,
Respondent(s)
CERTIFICATE OF SERVICE
COMES NOW, ELSIE MARINO, Petitioner in the above captioned matter, and
hereby respectfully certify that three true and correct copies of this Petitioner’s Writ
Of Certiorari have been forwarded by First Class Mail to:
Melissa O. Martinez, Esq.
McGuire Woods LLP
500 E. Pratt Street, Suite 1000
Baltimore, MD 21202
410*659-4400
(Counsel for Respondents: Bank of New York Mellon, As Trustee for CIT Mortgage
Loan Trust 2007-1)
and
Bizhan Beiramee, Esq.
BEIRAMEE LAW GROUP, P.C.
7508 Wisconsin Avenue, Second Floor
Bethesda, Maryland 20814
301-547-3805
(Counsel for Respondents: Jeffrey Nadel, Scott E Nadel, Daniel Menchel, Michael
Mckeown)
I declare under penalty of penury that the foregoing is true and correct.
Executed on October

. 2019

(Y^(MXa/C[)
Elsie Marino, Petitioner

